UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Compliance with Climate
                 Change Initiatives

                     Report No. OIG-INS-67-13-01




                                                   July 22, 201 3
                                              CONTENTS

BACKGROUND.......................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................... 1

FINDINGS ................................................................................................. 2

COMPLIANCE WITH APPLICABLE REQUIREMENTS................................... 3

  Suggestions .......................................................................................... 4

TABLES

Table 1 – Findings

Table 2 – Corrective Actions
BACKGROUND

             On February 25, 2013, the Office of Inspector General (OIG)
             received a letter from the Congressional Bicameral Task
             Force on Climate Change requesting an assessment of the
             actions of the National Labor Relations Board (NLRB) in
             confronting the growing threat of climate change. The Task
             Force’s request was in two parts. The first part of the
             request asked the OIG to:

             1. Identify the existing requirements in legislation,
                regulation, executive order, and other directives that
                apply to the NLRB;

             2. Assess whether it is meeting these requirements; and

             3. If it is not fully meeting these requirements, make
                recommendations for improving its performance.

             The second part of the request sought our assessment of:

             1. The authorities the NLRB has to reduce emissions of
                heat-trapping pollution;

             2. The NLRB’s authorities to make the nation more resilient
                to the effects of climate change; and

             3. The most effective additional steps the NLRB could take
                to reduce emissions or strengthen resiliency.

             In a letter dated March 29, 2013, we informed the Task
             Force that we were initiating an inspection. We also stated
             that the NLRB has no authorities to reduce emissions of
             heat-trapping pollution or make the nation more resilient to
             the effects of climate change.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this inspection was to identify the existing
             climate change requirements that apply to the NLRB and to
             assess whether the NLRB is meeting those requirements.
             Our scope was the NLRB’s Fiscal Years (FY) 2012 and 2013
             climate change efforts. We conducted this inspection at
             NLRB Headquarters in Washington, DC.
           We conducted legal research to determine which climate
           change laws, regulations, executive orders, and other
           directives apply to the NLRB. We interviewed staff of the
           Office of Management and Budget (including the Office of
           Federal Procurement Policy), Office of the Federal Chief
           Information Officer, Council on Environmental Quality
           (including the Office of the Federal Environmental
           Executive), Department of Energy’s Federal Energy
           Management Program, Environmental Protection Agency’s
           Office of Resource Conservation and Recovery, General
           Services Administration’s (GSA) Office of Motor Vehicle
           Management, GSA Federal Strategic Sourcing Initiative’s
           Office Supplies Program Office, and the District of Columbia
           Government’s Department of the Environment, Hazardous
           Waste Program for further guidance on which requirements
           were applicable for the NLRB. We also interviewed NLRB
           staff in the Office of the Executive Secretary, Division of
           Operations-Management, Office of the Chief Information
           Officer, Office of Human Resources, and the Division of
           Administration to learn about the NLRB’s compliance with
           the applicable climate change requirements.

           We obtained and reviewed the NLRB’s FY 2010, FY 2011,
           and FY 2012 Sustainability Plans, FY 2012 greenhouse gas
           emissions data report, FY 2012 Federal Automotive
           Statistical Tool (FAST) fleet reports, FY 2012 Regional Fleet
           Surveys, General Counsel and Operations-Management
           Memoranda, the NLRB’s Purchase Card Guide, the GSA
           lease prospectus for NLRB Headquarters, and current GSA
           occupancy agreements.

           We conducted this inspection in accordance with the Quality
           Standards for Inspection and Evaluation issued by the
           Council of the Inspectors General on Integrity and Efficiency
           during the period March 2013 through July 2013.


FINDINGS

           The NLRB complies with many of the requirements that
           relate to climate change. For example, the Agency includes
           green purchasing requirements in its guidance to purchase
           card holders and encourages Regional Offices to lease
           alternative fuel or hybrid vehicles. Our inspection, however,
           found that the Agency has not properly appointed a Senior


                                2
             Sustainability Officer until the week that our draft report
             was issued and that while the Agency has many policies in
             place, monitoring of compliance with the policies does not
             always occur. For example, the Agency has a procurement
             policy that requires purchase card holders to follow green
             purchasing guidelines, but no one monitors the purchase
             card transactions to ensure that purchases comply with
             those requirements, and the Agency has no corresponding
             policy for non-purchase card purchases. In another
             example, the Facilities and Property Branch files required
             reports on fleet vehicles, including the type of vehicle and
             fuel used, and the Division of Operations-Management
             oversees the Regional Offices’ vehicle use, but no Agency
             official was responsible for monitoring vehicle leases and fuel
             use to ensure that low greenhouse gas-emitting vehicles are
             leased and that alternative fuel is used in alternative fuel
             vehicles. In response to our draft report, the Acting Director
             of Administration stated that an employee was assigned to
             manage the Agency’s fleet of vehicles.


COMPLIANCE WITH APPLICABLE REQUIREMENTS

             Table 1 lists climate change laws, executive orders,
             Presidential memoranda, rules, regulations, and policies
             (collectively “rules” or “requirements”) that apply to Federal
             Agencies. Many of these climate change requirements
             clearly apply to, or clearly exempt, the NLRB. In other cases,
             however, a requirement’s applicability may not be evident, or
             compliance may not be practical. For example, Executive
             Order 13514 requires Federal Agencies to reduce water
             consumption. While the NLRB could implement measures to
             save water, such measures are not likely to be practical; the
             Agency leases all of its office space from GSA and cannot, for
             example, require the installation of water-saving toilets.

             Table 1 delineates the applicable and inapplicable provisions
             of the various climate change requirements and rules. The
             table also indicates whether the NLRB is complying with
             applicable provisions. In many cases, the NLRB meets the
             requirements. In other cases, however, the Agency’s staff
             was vaguely aware of climate change requirements and often
             abdicated responsibility, most frequently to GSA. In some
             cases, the responsibility does fall on GSA. For example
             under Executive Order 13514, because all of our leases are
             “fully-serviced” (the Agency does not pay for utilities, waste

                                  3
                  disposal, or cleaning services directly), GSA is responsible for
                  reporting greenhouse gas emissions associated with
                  electricity use in our buildings, disposing of waste, and
                  ensuring that cleaning contractors use non-toxic cleaning
                  materials. In other cases, however, while GSA can provide
                  assistance and guidance, the responsibility of meeting
                  climate change requirements falls solely on the NLRB.
                  Procurement and fleet vehicles are two prime examples.
                  GSA will make energy-efficient products and low greenhouse
                  gas-emitting vehicles available to the Agency, but it is the
                  NLRB’s responsibility to ensure that purchases and vehicle
                  leases meet climate change requirements. Appendices A and
                  B to Table 1 provide more detailed information about the
                  Agency’s fleet, including the types of vehicles and whether
                  they are alternative fuel or low greenhouse gas-emitting as
                  required by climate change requirements.

                  Table 2 lists several corrective actions the NLRB should take
                  to improve compliance with climate change rules.

Suggestion

We suggest that the Agency implement the corrective actions that are detailed
in Table 2.




                                       4
                                                                  Table 1: Findings

  Climate Change               Applicable Provisions               Compliant?            Notes/Explanation          Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
  Other Guidance
National              1.   Prepare environmental assessment       1.   No        1.   The Agency does not prepare
Environmental              or impact statement for every                              the statements required by
Policy Act (NEPA),         major Federal action that                                  NEPA.
1969, 42 U.S.C.            significantly affects the quality of
§4321-4347                 the environment, or prepare a
                           finding of no significant impact.
                           These terms (“major Federal
                           action,” “affects,” and
                           “significantly”) are defined in the
                           implementing regulations at 40
                           CFR Part 1508.

NEPA                  1.   Establish procedures to implement      1.   No        1.   The Agency does not have
Implementing               the CEQ’s “Regulations for                                 procedures to implement
Regulation:                Implementing the Procedural                                CEQ’s NEPA regulations.
Council for                Provisions of NEPA.”
Environmental
Quality (CEQ),
“Regulations for
Implementing the
Procedural
Provisions of the
National
Environmental
Policy Act,” 40 CFR
Parts 1500-1508

Resource              1.   Establish affirmative procurement      1.   No        1.   The Agency does not have an   •   Annual reporting to
Conservation and           program (APP) for maximizing                               APP.                              the Office of Federal
Recovery Act               purchases of each item designated                                                            Procurement Policy
(RCRA), 1976, 42           by the EPA ($10,000 or more per
 Climate Change              Applicable Provisions               Compliant?             Notes/Explanation             Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
U.S.C. 6901–6992k        year).                                                                                           and Office of the
                                                                                                                          Federal
                    2.   Purchase EPA-designated                2.   Partial   2.   The Purchase Card Guide               Environmental
                         recovered materials products (if                           (posted on the Agency                 Executive
                         Agency spends more than $10,000                            intranet) includes a
                         per year on that product).                                 requirement that buyers
                                                                                    purchase products containing
                                                                                    recovered materials. For non-
                                                                                    purchase card purchases, some
                                                                                    guidance is available on the
                                                                                    intranet, but the Agency has no
                                                                                    explicit policy. The Agency
                                                                                    has no method of enforcing or
                                                                                    monitoring compliance.

National Energy     1.   Purchase energy efficient products     1.   Partial   1.   The Purchase Card Guide           •   Reduce energy
Conservation             (Energy Star or FEMP-designated)                           requires procurement of               intensity by 30
Policy Act               unless the agency head specifies in                        Energy Star and FEMP-                 percent by 2015
(NECPA), 1978, as        writing that the product is not cost                       designated products. For non-     •   Install water and
amended by EPAct         effective or reasonably available.                         purchase card purchases, some         energy conservation
and EISA, 42 USCA                                                                   guidance is available on the          measures
8201 et seq.                                                                        intranet, but the Agency has no   •   Conduct
                                                                                    explicit policy. The Agency           comprehensive
See also: FEMP                                                                      has no method of enforcing or         energy and water
Guidelines for                                                                      monitoring compliance.                evaluations annually
Establishing                                                                                                          •   Install electric
Criteria for                                                                                                              metering by 2012, gas
Excluding           2.   Purchase products (computers,          2.   Partial   2.   The Purchase Card Guide               and steam metering
Buildings                microwaves, copiers, etc.) using 1                         includes a requirement to give        by 2016
                         watt or less of standby power.                             preference to products using 1    •   Submit information
                                                                                    watt of standby power or less.        for OMB scorecards
                                                                                    For non-purchase card             •   Report annually to
                                                                                    purchases, the Agency has no          DOE/FEMP

                                                                         2
 Climate Change                Applicable Provisions            Compliant?             Notes/Explanation              Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                                                                                   explicit policy. The Agency
                                                                                   has no method of enforcing or
                                                                                   monitoring compliance.

NECPA                 1.   Agencies should require the         1.   No        1.   Other than Purchase Card           •   Agencies should
implementing               procurement of Energy Star and                          purchases, the Agency has no           consider the
regulation:                FEMP designated products in                             policy for the procurement of          procurement
Final Rule, Federal        service contracts.                                      Energy Star and FEMP-                  planning
Procurement of                                                                     designated products and no             requirements of
Energy Efficient                                                                   written policy incorporating           section 553 of the
Products, 74 Fed.                                                                  these requirements and                 National Energy
Reg. 10830-10836                                                                   preferences into new or                Conservation Policy
(Mar. 13, 2009), 10                                                                existing contracts.                    Act as applying to: (1)
CFR Part 436 (2009)                                                                                                       Design, design/build,
                      2.   When evaluating offers for goods    2.   No        2.   The Agency has no policy to            renovation, retrofit
                           or services, agencies should                            include criteria for energy            and services
                           include criteria for energy                             efficiency in evaluating offers.       contracts; facility
                           efficiency.                                                                                    maintenance and
                                                                                                                          operations contracts;
                      3.   Agencies should notify their        3.   Partial   3.   Most products purchased by             (2) Energy savings
                           vendors of the Federal                                  the Agency are from GSA                performance contracts
                           requirements for energy efficient                       supply schedules; the Agency           and utility energy
                           purchasing.                                             incorrectly assumes those              service contracts; (3) If
                                                                                   products meet the                      applicable, lease
                                                                                   requirements. The Agency               agreements for
                                                                                   relies on program offices to           buildings or
                                                                                   specify applicable                     equipment, including
                                                                                   requirements for requests for          build-to-lease
                                                                                   proposals (RFP). As an                 contracts.
                                                                                   example, the new RFP for
                                                                                   copiers did include
                                                                                   requirements for energy
                                                                                   efficiency.


                                                                         3
 Climate Change                 Applicable Provisions              Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance

Energy                 1.   Acquire only low greenhouse gas       1.   No        1.   The Agency does not have a          •   High performance
Independence and            (GHG) emitting-vehicles ii; if not                        policy re: low GHG-emitting             Federal buildings
Security Act (EISA),        low GHG, the agency head must                             vehicles iii; the Agency                requirements
2007, P.L. 110-140          certify that the vehicle meets one                        incorrectly assumes that all        •   Ensure renovation,
(Dec. 19, 2007), 121        of two exceptions: functional                             GSA-leased vehicles meet the            replacement,
Stat. 1492, 42 USC          needs or alternative measures (that                       requirement.                            expansion of existing
17001, et seq.              the agency has taken specific, more                       o In FY 2012, the Agency                space use energy-
                            cost-effective measures to reduce                            incorrectly reported                 efficient designs,
                            petroleum consumption).                                      (through the FAST system)            systems, equipment,
                                                                                         that it acquired only low            and controls that are
                                                                                         GHG-emitting vehicles. In            life-cycle cost-
                                                                                         fact, the Agency acquired 10         effective.
                                                                                         vehicles, 1 of which was         •   Lease buildings with
                                                                                         non-compliant. Based on              Energy Star rating
                                                                                         that report, of the 37               only
                                                                                         vehicles leased, between 11      •   Designate Energy
                                                                                         and 23 are not low GHG-              Manager
                                                                                         emitting. iv See Appendices
                                                                                         A and B.
                                                                                      o The Agency does not have
                                                                                         functional needs exemptions
                                                                                         for non-compliant vehicles.

                       2.   Reduce petroleum consumption by       2.   Partial   2.   The Agency does not have a
                            20 percent and increase alternative                       policy to reduce petroleum and
                            fuel v consumption by 10 percent                          increase alternative fuel use.
                            from 2005 baseline by October 1,                          The Agency met targets to
                            2015.                                                     reduce petroleum consumption
                                                                                      and has reduced petroleum
                                                                                      consumption by 25 percent
                                                                                      (from 17,192 gallons in FY 2006
                                                                                      to 12,812 gallons in FY 2012). vi


                                                                            4
 Climate Change              Applicable Provisions               Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                                                                                    The Agency reported 0
                                                                                    gasoline gallon equivalents
                                                                                    (gge) of alternative fuel used in
                                                                                    FY 2005; in FY 2012, the
                                                                                    Agency reported 116 gge used,
                                                                                    less than 1 percent of the 12,812
                                                                                    gallons of petroleum used. The
                                                                                    Agency does not have
                                                                                    procedures in place to monitor
                                                                                    petroleum and alternative fuel
                                                                                    use.

                    3.   Submit efficiency status report to     3.   Yes       3.   The Agency files annual
                         OMB.                                                       Sustainability Plans and GHG
                                                                                    emissions data workbook, but
                                                                                    the FY 2012 plan did not
                                                                                    include the required climate
                                                                                    change adaptation plan even
                                                                                    though the plan was written.

                    4.   Entering into a contract for synfuel   4.   Yes       4.   The Agency did not purchase
                         is prohibited unless its life cycle                        synfuel in FY 2012.
                         GHG emissions are less than those
                         for conventional petroleum
                         sources.

EISA Fuel           1.   By October 1, 2015, annual             1.   Yes       1.   The Agency has no policies to
Consumption              petroleum consumption of the                               reduce petroleum consumption
Implementing             fleet must be equal to or less than                        or monitor fuel consumption.
Regulation:              80 percent of that fleet’s FY 2005                         The Agency met interim
Proposed Rule,           baseline.                                                  targets to reduce petroleum
Petroleum                                                                           consumption and reduced
Reduction                                                                           petroleum use by 25 percent


                                                                           5
  Climate Change               Applicable Provisions              Compliant?             Notes/Explanation              Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
  Other Guidance
Consumption                                                                          between FY 2006 and FY 2012.
Requirements for
Federal Fleets,       2.   Annual alternative fuel               2.   No        2.   The Agency has no policies to
Department of              consumption must be equal to or                           increase alternative fuel use or
Energy, 10 CFR             greater than 110 percent of FY 2005                       monitor fuel consumption.
Part 438, 77 F.R.          baseline. Proposed rule provides                          The Agency reported 0 gge of
14482-14490 (Mar.          calculations for alternative                              alternative fuel used in FY 2005
12, 2012) vii              minimum baseline for agencies                             (the baseline year) and 116 gge
                           with low alternative fuel                                 in FY 2012.
                           consumption. Under this
                           minimum baseline, the NLRB
                           would be required to use 946 gge
                           of alternative fuel by October 1,
                           2015. viii

                      3.   Agencies must report annually         3.   Yes       3.   The Agency files annual FAST
                           (through FAST).                                           reports.

                      4.   Rule sets non-mandatory ix interim    4.   Partial   4.   The Agency is on track for
                           milestones for reducing petroleum                         meeting target for petroleum
                           consumption and increasing                                reduction; the Agency does not
                           alternative fuel consumption.                             monitor fuel consumption and
                                                                                     used only 116 gge of
                                                                                     alternative fuel in FY 2012
                                                                                     compared to the 946 gge of
                                                                                     alternative fuel it must use in
                                                                                     FY 2015.

Telework              1.   Establish telework policy by Dec.     1.   Yes       1.   The Agency has a telework
Enhancement Act,           9, 2010.                                                  policy.
2010, 5 USC 6501 et
seq.                  2.   Consult with OPM to develop           2.   No        2.   The Agency stated that it
                           policies.                                                 consulted with OPM in


                                                                            6
Climate Change              Applicable Provisions              Compliant?             Notes/Explanation             Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                                                                                  developing telework policies
                                                                                  but could not provide
                                                                                  documentation of that
                                                                                  consultation.

                   3.   Within 180 days of the Telework       3.   Partial   3.   The Agency notifies employees
                        Enhancement Act (TEA) passage                             when hired if they are eligible
                        (Dec. 9, 2010), determine employee                        and sent out a general
                        eligibility for telework and notify                       notification to most employees
                        employees of their eligibility (TEA                       after the TEA was passed that
                        includes specific eligibility                             notified employees of the
                        guidelines).                                              eligibility requirements. The
                                                                                  Agency’s eligibility guidelines
                                                                                  generally follow the TEA,
                                                                                  except for TEA’s requirement
                                                                                  that employees handling
                                                                                  secure materials be excluded
                                                                                  from telework.

                   4.   Incorporate telework into the         4.   Yes       4.   Telework is incorporated into
                        continuity of operations plan                             the COOP, and COOP is
                        (COOP).                                                   incorporated into the telework
                                                                                  policy.

                   5.   Require written agreements.           5.   Yes       5.   The Agency requires written
                                                                                  telework agreements.

                   6.   Establish goal to increase telework   6.   No        6.   The Agency does not have a
                        participation.                                            telework participation goal.

                   7.   Implement a telework training         7.   Yes       7.   The Agency required initial
                        program for employees and                                 training for teleworking
                        supervisors.                                              employees and supervisors.


                                                                         7
 Climate Change              Applicable Provisions              Compliant?             Notes/Explanation              Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance

                    8.   Treat teleworking and non-            8.   Yes       8.   The Agency policy requires
                         teleworking employees the same                            that teleworking and non-
                         for evaluations, training, work                           teleworking employees be
                         requirements, etc.                                        treated similarly.

                    9.   Designate senior official as          9.   No        9.   The Agency has not
                         Telework Managing Officer                                 designated, in writing, a senior
                         (TMO).                                                    official to be TMO.

                    10. Chief Human Capital Officer and        10. Yes        10. The Agency participated in the
                        TMO submit annual reports to                              FY 2012 OPM telework data
                        Council of Human Capital Officers                         call.
                        on efforts to promote telework;
                        data are provided to the Council
                        through the OPM telework data
                        call.

                                         EXECUTIVE ORDERS AND PRESIDENTIAL MEMORANDA
Executive Order     1.   Establish a mass transportation   1. Yes   1. The Agency has a mass transit
13150, Federal           and vanpool fringe benefit                    fringe benefit program.
Workforce                program for employees to deduct
Transportation,          cost of mass transit and vanpools
2000                     from taxes.

                    2.   In National Capital Region, set up    2.   Yes       2.   The Agency has a transit pass
                         a transit pass system.                                    program for National Capital
                                                                                   Region employees.

Executive Order     1.   Any electronic products purchased     1.   Partial   1.   The Purchase Card Guide
13221, Energy            by an agency should use no more                           includes a requirement to give
Efficient Standby        than one watt of standby power                            preference to products using 1
Power Devices,           (where lifecycle cost effective and                       watt of standby power or less.


                                                                          8
  Climate Change              Applicable Provisions               Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
  Other Guidance
2001, 66 Fed. Reg.        practicable). Independent agencies                         For non-purchase card
40569                     are encouraged to comply.                                  purchases, the Agency has no
                                                                                     explicit policy. The Agency
                                                                                     has no method of enforcing or
                                                                                     monitoring compliance.

Executive Order      1.   Require in agency acquisitions of      1.   Partial   1.   The Agency’s Purchase Card          •   Reduce water
13423,                    goods and services the use of                              Guide instructs buyers to               consumption.
Strengthening             sustainable environmental                                  purchase “bio-based,                •   Reduce “energy
Federal                   practices, including the acquisition                       environmentally preferable,             intensity” by 3
Environmental,            of biobased, environmentally                               energy-efficient, water                 percent per year or 15
Energy, and               preferable, energy-efficient, water-                       conserving and recycled-                percent by FY 2015
Transportation            efficient, and recycled-content                            content” products, including            relative to 2003
Management, 2007,         products, and the use of paper of                          paper that contains at least 30         baseline.
72 Fed. Reg. 3919         at least 30 percent post-consumer                          percent post-consumer fiber.        •   New construction and
                          fiber content.                                             For non-purchase card                   renovation projects
See also                                                                             purchases, some guidance is             must comply with
Instructions for                                                                     available on the intranet, but          Guiding Principles.
Implementing                                                                         the Agency has no explicit          •   50 percent of
Executive Order                                                                      policy. The Agency has no               “statutorily required
13423                                                                                method of enforcing or                  renewable energy”
                                                                                     monitoring compliance.                  must come from new
                                                                                                                             renewable sources.
                     2.   Reduce the quantity of toxic and       2.   Partial   2.   The Agency purchased new            •   Ensure that contracts
                          hazardous chemicals and                                    recycling bins for HQ to                entered into after the
                          materials; have waste prevention                           encourage recycling. The                date of this order for
                          and recycling programs.                                    Agency also stated that it relies       contractor operation
                                                                                     on the HQ landlord to recycle           of government-
                                                                                     the items in accordance with            owned facilities or
                                                                                     DC statutes. The Agency                 vehicles require the
                                                                                     reports that 28 Field Offices are       contractor to comply
                                                                                     in Federal buildings that follow        with the provisions of
                                                                                     the mandated recycling


                                                                          9
Climate Change              Applicable Provisions              Compliant?             Notes/Explanation               Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                                                                                  programs. For the additional            this order with
                                                                                  26 Field Offices that are in            respect to such
                                                                                  leased space, the Agency was            facilities or vehicles to
                                                                                  not able to provide                     the same extent as the
                                                                                  documentation of the recycling          Agency would be
                                                                                  programs. The Agency does               required to comply if
                                                                                  not have a policy regarding             the Agency operated
                                                                                  toxic waste. x                          the facilities or
                                                                                                                          vehicles.
                   3.   Meet 95 percent of electronics        3.   Partial   3.   The Agency does not have a          •   Ensure that
                        requirements with Electronic                              policy that 95 percent of               agreements with
                        Product Environmental                                     electronics requirements be             tenants or
                        Assessment Tool (EPEAT)-                                  met with EPEAT-registered               concessionaires
                        registered products (unless none                          products.                               facilitate the Agency’s
                        available).                                               o The Purchase Card Guide               compliance with this
                                                                                     specifies that all electronics       order as appropriate.
                                                                                     purchases be EPEAT-
                                                                                     registered unless there is no
                                                                                     EPEAT standard for the
                                                                                     product. For non-purchase
                                                                                     card purchases, some
                                                                                     guidance is available on the
                                                                                     intranet, but the Agency has
                                                                                     no explicit policy. The
                                                                                     Agency has no method of
                                                                                     enforcing or monitoring
                                                                                     compliance.

                   4.   Enable the Energy Star feature on     4.   No        4.   OCIO has no policy to enable
                        agency computers and monitors.                            Energy Star feature.

                   5.   Establish and implement policies      5.   No        5.   The Agency does not have
                        to extend the useful life of agency                       written policies to extend the


                                                                        10
Climate Change              Applicable Provisions             Compliant?             Notes/Explanation             Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                        electronic equipment.                                    useful life of electronics.
                                                                                 Agency laptops and monitors
                                                                                 have a 3-year replacement
                                                                                 cycle (users receive the
                                                                                 replacement in the 4th year);
                                                                                 printers are replaced on an as-
                                                                                 needed basis.

                   6.   Use environmentally sound            6.   Yes       6.   The Agency policy is that all
                        practices with respect to                                replaced electronic equipment
                        disposition of agency electronic                         is “excessed” to GSA in
                        equipment that has reached the                           accordance with GSA
                        end of its useful life.                                  requirements.

                   7.   Fleet of 20+ vehicles: reduce        7.   Partial   7.   The Agency does not have a
                        petroleum use by 2 percent                               policy to reduce petroleum use
                        annually through the end of FY                           and increase alternative fuel
                        2015, increase total non-petroleum                       use and does not monitor fuel
                        fuel consumption by 10 percent                           consumption. The Agency has
                        annually; use plug-in hybrids                            reduced petroleum use by 25
                        (PIH) when available and                                 percent (from 17,192 gallons in
                        reasonably comparable to non-                            FY 2006 to 12,812 gallons in FY
                        PIHs.                                                    2012). Alternative fuel use in
                                                                                 FY 2012 was 116 gge. The
                                                                                 Agency currently has no plug-
                                                                                 in hybrids. Agency policy
                                                                                 instructs Regions to choose
                                                                                 alternative fuel or hybrid
                                                                                 vehicles but does not specify
                                                                                 plug-in hybrids.

                   8.   Establish programs for training,     8.   No        8.   The Agency does not have
                        compliance review and audit, and                         programs for environmental


                                                                       11
 Climate Change              Applicable Provisions               Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                         awards.                                                    compliance review and audit,
                                                                                    environmental management
                                                                                    training, or leadership awards.

                    9.  Designate implementing official in      9.   Partial   9.   From June 2012 to July 2013,
                        the Senior Executive Service (SES);                         the Agency had named an
                        report such designation to OMB                              employee (not a senior official)
                        and CEQ; assign the designated                              as Senior Sustainability Officer.
                        official the authority and duty to                          Our observation was that this
                        monitor and report to the head of                           employee filed the annual
                        the agency on agency activities to                          Sustainability Plans and GHG
                        carry out the Executive order and                           emissions workbook but did
                        perform such other duties relating                          not otherwise monitor or
                        to the implementation of this order                         implement this order.
                        within the agency as the head of
                        the agency deems appropriate.
                    10. Report to the Council on                10. Yes        10. The Agency files annual
                        Environmental Quality, OMB, and                            Sustainability Plans and
                        Federal Environmental Executive                            reports GHG emissions and
                        as required.                                               fleet data.

                    11. Implement Environmental                 11. No         11. The Agency could not provide
                        Management System (EMS) or                                 documentation of an EMS or
                        compliance management plan.                                compliance management plan.

                    12. Establish practices to implement        12. Partial    12. See explanations for
                        applicable provisions of the                               Applicable Provisions 1
                        Executive order.                                           through 11.

Executive Order     1.   Establish greenhouse gas emission      1.   Yes       1.   The Agency established 2020         •   Establish and report
13514, Federal           reduction target for 2020 for                              emission reduction targets for          Scope 2 emissions.
Leadership in            Scopes 1 and 3 xi emissions relative                       Scopes 1 and 3.                     •   Reduce energy
Environmental,           to a 2008 baseline.


                                                                         12
  Climate Change              Applicable Provisions            Compliant?             Notes/Explanation             Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
  Other Guidance
Energy, and                                                                                                             intensity in buildings.
Economic             2.   Report annually to CEQ and OMB      2.   Yes       2.   The Agency reports Scope 1        •   Increase use of
Performance, 2009,        on GHG emissions, including                             and 3 greenhouse gas                  renewable energy and
74 Fed. Reg. 52117        Scopes 1 and 3.                                         emissions.                            implement renewable
                                                                                                                        energy generation
                     3.   Use low GHG-emitting vehicles.      3.   Partial   3.   In FY 2012, the Agency                projects on agency
                                                                                  incorrectly reported (through         property.
                                                                                  the FAST system) that it          •   Pursue opportunities
                                                                                  acquired only low GHG-                with vendors and
                                                                                  emitting vehicles. In fact, the       contractors to reduce
                                                                                  Agency acquired 10 vehicles, 1        GHG emissions.
                                                                                  of which was non-compliant.       •   Improve water use
                                                                                  Based on that report, of the 37       and efficiency by
                                                                                  vehicles leased, 11 are not low       reducing
                                                                                  GHG-emitting. See                     consumption.
                                                                                  Appendices A and B.               •   Promote pollution
                                                                                  a. The Agency incorrectly             prevention and
                                                                                     assumes that all GSA-leased        eliminate waste by,
                                                                                     vehicles meet the                  among other things,
                                                                                     requirement.                       diverting solid waste,
                                                                                                                        and decreasing
                     4.   Optimize number of vehicles in      4.   Yes       4.   The Agency surveys Regions            chemical use.
                          the fleet.                                              annually to determine whether     •   Advance regional and
                                                                                  they have a continued need for        local integrated
                                                                                  vehicles based on mileage or          planning.
                                                                                  days used.                        •   Implement high
                                                                                                                        performance
                     5.   Reduce petroleum consumption by     5.   Yes       5.   The Agency is on target and by        sustainable Federal
                          2 percent annually through FY                           FY 2012 had reduced                   building design,
                          2020.                                                   petroleum consumption by 25           construction,
                                                                                  percent.                              operation and
                                                                                                                        management,
                     6.   Implement strategies for transit,   6.   Yes       6.   The Agency has transit benefits


                                                                      13
Climate Change              Applicable Provisions               Compliant?             Notes/Explanation               Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                        travel, training, and conferencing                         and a telework program for             maintenance, and
                        that support lower-carbon                                  Headquarters and field staff.          deconstruction.
                        commuting and travel by staff.
                   7.   Develop innovative policies and        7.   Yes       7.   The Agency established the
                        practices to address Scope 3 GHG                           “Green Team,” developed the
                        emissions unique to Agency                                 NxGen case management
                        operations.                                                system to reduce paper
                                                                                   records, and developed a
                                                                                   public Web portal for
                                                                                   electronic case filing.

                   8.   Reduce paper use.                      8.   Yes       8.   Duplex printing: in the FY
                                                                                   2011 Sustainability Plan, the
                                                                                   Agency stated that it would set
                                                                                   all printers to default to duplex
                                                                                   printing by May 2011. In
                                                                                   response to recent cost-savings
                                                                                   memos instructing employees
                                                                                   to reduce printing and print
                                                                                   and copy double-sided, the
                                                                                   Agency configured printers for
                                                                                   duplex printing in June 2013.

                   9.   Buy uncoated printing and writing      9.   Partial   9.   The Agency’s Purchase Card
                        paper with at least 30 percent post-                       Guide specifies the purchase of
                        consumer fiber.                                            paper with 30 percent post-
                                                                                   consumer fiber content. For
                                                                                   non-purchase card purchases,
                                                                                   some guidance is available on
                                                                                   the intranet, but the Agency
                                                                                   has no explicit policy. The
                                                                                   Agency has no method of
                                                                                   enforcing or monitoring


                                                                       14
Climate Change             Applicable Provisions              Compliant?            Notes/Explanation             Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                                                                                compliance.

                   10. Ensure that 95 percent of new          10. No        10. The Agency does not have
                       contract actions (including task                         procedures to ensure that 95
                       and delivery orders) for products                        percent of new contracts meet
                       and services are Energy Star or                          these requirements.
                       FEMP-designated, water-efficient,
                       biobased, environmentally
                       preferable (e.g., EPEAT certified),
                       non-ozone depleting, contain
                       recycled content, or are non-toxic
                       or less toxic, where these
                       products/services meet Agency
                       performance requirements.

                   11. Promote electronics stewardship:       11. Partial   11. Electronics stewardship:
                       a. Ensure procurement preference                         a. The Purchase Card Guide
                          for EPEAT-registered electronics;                        specifies that all purchases
                       b. Establish and implement policies                         should meet green
                          to enable power management,                              purchasing requirements,
                          duplex printing, and other                               including EPEAT-registered
                          energy-efficient features on                             products. For non-purchase
                          Agency electronics;                                      card purchases, some
                       c. Ensure purchase of Energy Star                           guidance is available on the
                          and FEMP-designated                                      intranet, but the Agency has
                          electronics;                                             no explicit policy. The
                       d. Employ environmentally sound                             Agency has no method of
                          practices with respect to the                            enforcing or monitoring
                          agency’s disposition of all                              compliance.
                          agency excess or surplus                              b. OCIO does not have a power
                          electronic products;                                     management policy.
                       e. Implement best practices for                             According to the OCIO, they
                          energy-efficient management of                           provide for the power


                                                                       15
Climate Change       Applicable Provisions     Compliant?       Notes/Explanation               Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                   servers and data centers.                   management of computers
                                                               and monitors through the
                                                               use of Active Directory
                                                               group policies. The OCIO
                                                               did not document how the
                                                               power management settings
                                                               were determined or the
                                                               standards that they used to
                                                               determine power usage. In
                                                               June 2013, the OCIO
                                                               configured printers to
                                                               support duplex printing.
                                                            c. The Purchase Card Guide
                                                               includes a requirement to
                                                               purchase Energy Star and
                                                               FEMP-designated products.
                                                               For non-purchase card
                                                               purchases, some guidance is
                                                               available on the intranet, but
                                                               the Agency has no explicit
                                                               policy. The Agency has no
                                                               method of enforcing or
                                                               monitoring compliance.
                                                            d. Agency policy is that all
                                                               replaced electronic
                                                               equipment is “excessed” to
                                                               GSA in accordance with GSA
                                                               requirements.
                                                            e. The Agency is not required
                                                               to participate in the Data
                                                               Center Initiative, but in the
                                                               2011 Sustainability Plan, the
                                                               Agency described a plan to


                                                    16
Climate Change             Applicable Provisions             Compliant?            Notes/Explanation               Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                                                                                 consolidate certain IT
                                                                                 capabilities.

                   12. Designate a Senior Sustainability     12. Partial   12. From June 2012 to July 2013,
                       Officer accountable for Agency                          the Agency had a Senior
                       conformance with the                                    Sustainability Officer who
                       requirements of this Executive                          prepared the Agency’s
                       order and responsible for                               Sustainability Plans, but he
                       preparing targets and reporting,                        was not accountable for the
                       including preparing Agency’s                            Agency’s conformance with
                       Sustainability Plan, monitoring                         the requirements of the order,
                       performance, and reporting                              did not monitor performance,
                       annually to the head of the agency.                     and did not report to the head
                                                                               of the Agency. In July 2013,
                                                                               the Agency appointed an SES
                                                                               official to perform this
                                                                               function.

                   13. Minimize generation of waste and      13. Partial   13. The Agency purchased new
                       pollutants through source                               recycling bins for HQ to
                       reduction; reduce quantity of toxic                     encourage recycling. The
                       and hazardous chemicals and                             Agency also stated that it relies
                       materials.                                              on the HQ landlord to recycle
                                                                               the items in accordance with
                                                                               DC statutes. The Agency
                                                                               reports that 28 Field Offices are
                                                                               in Federal buildings that follow
                                                                               the mandated recycling
                                                                               programs. For the additional
                                                                               26 Field Offices that are in
                                                                               leased space, the Agency was
                                                                               not able to provide
                                                                               documentation of the recycling


                                                                    17
 Climate Change                  Applicable Provisions             Compliant?            Notes/Explanation              Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                                                                                     programs.

                                                                                     In response to recent cost-
                                                                                     savings memos instructing
                                                                                     employees to reduce printing
                                                                                     and print and copy double-
                                                                                     sided, the Agency configured
                                                                                     printers for duplex printing.
                                                                                     The Agency does not have a
                                                                                     policy regarding toxic waste.

Presidential            1.   Eliminate excess property and        1.   Yes      1.   The Agency leases all office       •   Adopt a policy
Memorandum,                  leases; offset reductions when new                      space from GSA, and though             against expanding
Disposing of                 space is acquired; pursue                               the Agency requests specific           data centers beyond
Unneeded Federal             consolidation opportunities within                      square footage, GSA selects the        current levels.
Real Estate, June 10,        and across agencies in common                           buildings and determines the       •   Submit a plan to OMB
2010                         asset types (such as data centers,                      size of the space. The Agency          by August 30
                             office space, warehouses, and                           has an unwritten practice to           regarding Agency
                             laboratories); and increase                             assess the need for space              policy against
                             occupancy in current facilities.                        reduction when each lease              expanding data
                                                                                     expires. Between FY 2010 and           centers beyond
                                                                                     FY 2012, the Agency reduced            current levels and
                                                                                     space from 852,927 sq. ft. to          plan to consolidate
                                                                                     845,857 sq. ft. In addition, GSA       and reduce them
                                                                                     recently sought bids for a new         within 5 years.
                                                                                     lease for the Headquarters,
                                                                                     which will reduce space by an
                                                                                     additional 92,000 Rentable
                                                                                     Square Feet (RSF).

                                                                                     In the 2011 Sustainability Plan,
                                                                                     the Agency described a plan to
                                                                                     consolidate certain IT


                                                                         18
 Climate Change              Applicable Provisions               Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                                                                                    capabilities.

Presidential        1.   Agencies must freeze their             1.   Yes       1.   The Agency leases all office
Memorandum               footprint at the FY 2012 level. Any                        space from GSA, and though
Implementing             new acquisitions must be offset by                         the Agency requests specific
Memo: OMB Memo           consolidation, co-location, or                             square footage, GSA selects the
M-12-12, May 2012        disposal of space.                                         buildings and determines the
                                                                                    size of the space. The Agency
                                                                                    has an unwritten practice to
                                                                                    assess the need for space
                                                                                    reduction when each lease
                                                                                    expires. Between FY 2010 and
                                                                                    FY 2012, the Agency reduced
                                                                                    space from 852,927 sq. ft. to
                                                                                    845,857 sq. ft. In addition, GSA
                                                                                    recently sought bids for a new
                                                                                    lease for the Agency
                                                                                    Headquarters, which will
                                                                                    reduce space by an additional
                                                                                    92,000 RSF.

Presidential        1.   By Dec. 31, 2015, all new light duty   1.   No        1.   In 2012, the Agency reported
Memorandum,              vehicles leased or purchased must                          through FAST that it had 37
Federal Fleet            be alternative fuel and must, as                           vehicles. Of those vehicles, 20
Performance, May         soon as practicable, be located in                         meet the requirement because
24, 2011                 proximity to fueling stations with                         they are either E85 flexible-fuel
                         available alternative fuels, and be                        vehicles or they are gas hybrid
                         operated on the alternative fuel for                       vehicles. For remaining 17 gas
                         which the vehicle is designed. xii                         powered vehicles, 5 are low
                                                                                    GHG-emitting and are located
                                                                                    more than 5 miles from an E85
                                                                                    fueling station. Given that
                                                                                    distance from an E85 fueling


                                                                          19
Climate Change              Applicable Provisions              Compliant?             Notes/Explanation              Inapplicable Provisions i
Law, Regulation,
Executive Order,
Other Guidance
                                                                                  station, those five vehicles
                                                                                  would also meet the
                                                                                  requirement. The remaining 12
                                                                                  vehicles do not meet the
                                                                                  requirement. xiii See Appendix
                                                                                  A.

                                                                                  Of the 10 vehicles acquired in
                                                                                  FY 2012, 6 are E85 flexible-fuel
                                                                                  vehicles; two of those are
                                                                                  located more than 5 miles from
                                                                                  an E85 station. All 4 gas-
                                                                                  powered vehicles are low
                                                                                  GHG-emitting and located
                                                                                  more than 5 miles from an E85
                                                                                  station. See Appendix B.

                                                                                  Agency policy is that Regions
                                                                                  should choose alternative fuel
                                                                                  vehicles or hybrids when
                                                                                  replacing vehicles but did not
                                                                                  monitor the type of car chosen.
                                                                                  The Agency does not have a
                                                                                  policy that alternative fuel
                                                                                  vehicles must be run on
                                                                                  alternative fuel. The Agency
                                                                                  does not monitor whether
                                                                                  alternative fuel is available in
                                                                                  proximity to a vehicle’s garage
                                                                                  location.

                   2.   Pursuant to regulations (41 C.F.R.    2.   No        2.   The Agency reported three
                        102-34.50), the fleet is to achieve                       SUV/4x4 vehicles and 11


                                                                        20
 Climate Change               Applicable Provisions             Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                          maximum fuel efficiency, be                              vehicles that are not low GHG-
                          limited in size and equipment to                         emitting. (See Appendix A.)
                          what is essential, and be midsize                        The Agency has not posted on
                          or smaller (except where larger is                       its Web site a list of fleet
                          essential to the mission). By                            vehicles larger than midsized
                          November 2011, any vehicle larger                        or not alternative fuel vehicles.
                          than midsize sedan or that does
                          not use alternative fuel must be
                          disclosed on the agency Web site.

                     3.   The agency shall determine           3.   No        3.   The Agency has not completed
                          optimal fleet inventory using                            the VAM, determined optimal
                          GSA’s Vehicle Allocation                                 fleet inventory, posted optimal
                          Methodology (VAM), post optimal                          fleet inventory target on Web
                          fleet inventory target on agency                         site, or submitted fleet
                          Web site, and submit fleet                               management plans to GSA.
                          management plans to GSA by Dec.
                          31, 2015.

                     4.   Agency shall incorporate the new     4.   No        4.   The Agency has not
                          fleet management plan into the                           incorporated the fleet
                          Annual Strategic Sustainability                          management plan into its
                          Performance Plan beginning with                          Sustainability Plan.
                          the June 2012 submission.

Presidential         1.   Provides directions for completing   1.   No        1.   The Agency has not completed
Memorandum                GSA Vehicle Allocation                                   a VAM.
Implementing              Methodology (VAM).
Bulletin: GSA
Bulletin FMR B-30,
Aug 22, 2011




                                                                         21
 Climate Change              Applicable Provisions              Compliant?             Notes/Explanation             Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance

                                                   REGULATIONS AND OTHER GUIDANCE
Motor Vehicle       1.   Agencies must obtain vehicles that 1. Partial 1. The Agency has 3 SUVs in
Management, 41           are the minimum size necessary,                  “snow belt” cities and 11
CFR Part 102-34          achieve maximum fuel efficiency,                 vehicles that are not low GHG-
                         and are no larger than midsized.                 emitting. (See Appendix A.)
                                                                          The Agency has not completed
                                                                          a VAM.

                    2.   Fleets must meet average fuel         2.   No        2.   The Agency does not maintain
                         economy standards; agencies must                          records related to fuel
                         calculate fleet fuel economy in                           efficiency of the fleet.
                         accordance with the regulation
                         (and request exemptions if
                         needed).

                    3.   Agencies must establish and           3.   No        3.   The Agency has not completed
                         document a structured vehicle                             a VAM.
                         allocation methodology (VAM) to
                         determine the appropriate size and
                         number of motor vehicles. See
                         GSA FMR Bulletin B-30 above.

                    4.   Agencies must use alternative fuel    4.   No        4.   The Agency has 20 alternative
                         in alternative fuel vehicles to the                       fuel vehicles but used only 116
                         fullest extent practicable.                               gge of alternative fuel (less
                                                                                   than 1 percent of the 12,812
                                                                                   gallons of petroleum used) in
                                                                                   FY 2012.




                                                                         22
 Climate Change                Applicable Provisions              Compliant?             Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                      5.   The agency is required to report      5.   Yes       5.   The Agency reports data
                           vehicle data to GSA through FAST                          through FAST system.
                           reporting system annually.

                      6.   The agency is required to have a      6.   Yes       6.   The Agency leases all vehicles
                           specified fleet management                                from GSA; for GSA-leased
                           information system.                                       vehicles, GSA Fleet’s
                                                                                     management information
                                                                                     system meets the requirement.

Federal Acquisition   1.   Subpart 23.2: When purchasing         1.   Partial   1.   The Purchase Card Guide
Regulation Part 23         energy-consuming products listed                          requires procurement of
                           in the Energy Star or FEMP                                Energy Star-designated
                           programs, purchase designated                             products and products that
                           products, including items which                           consume no more than 1 watt
                           meet FEMP’s standby power                                 of standby power. For non-
                           wattage recommendations.                                  purchase card purchases, some
                           o When contracting for services                           guidance is available on the
                               that will include the provision                       intranet, but the Agency has no
                               of energy-consuming products,                         explicit policy. The Agency
                               specify products that comply                          has no method of enforcing or
                               with the above provision.                             monitoring compliance.

                      2.   Subpart 23.4: Purchase EPA-           2.   Partial   2.   The Purchase Card Guide
                           designated recovered materials                            requires procurement of EPA-
                           products and USDA-designated                              and USDA- designated
                           biobased materials products (if the                       products. For non-purchase
                           agency spends more than $10,000                           card purchases, some guidance
                           per year on that product).                                is available on the intranet, but
                           o Establish affirmative                                   the Agency has no explicit
                               procurement program (APP)                             policy. The Agency has no
                               for maximizing purchases of                           method of enforcing or
                               each item designated by the                           monitoring compliance.

                                                                         23
 Climate Change               Applicable Provisions                 Compliant?                 Notes/Explanation               Inapplicable Provisions i
 Law, Regulation,
 Executive Order,
 Other Guidance
                             EPA ($10,000 or more per                                      o   The Agency does not have
                             year).                                                            an APP.

                     3.   Subpart 23.703: Implement cost-          3.   Partial       3.   The Purchase Card Guide
                          effective contracting preference                                 requires procurement of
                          programs promoting energy-                                       environmentally-preferable,
                          efficiency, water conservation, and                              energy-efficient, and water-
                          the acquisition of environmentally                               efficient products. For non-
                          preferable products and services;                                purchase card purchases, some
                          and employ acquisition strategies                                guidance is available on the
                          that affirmatively implement                                     intranet, but the Agency has no
                          specified environmental objectives.                              explicit policy. The Agency
                                                                                           has no method of enforcing or
                                                                                           monitoring compliance.

                     4.   Subpart 23.705: 95 percent of            4.   Partial       4.   The Purchase Card Guide
                          electronics acquisitions must be for                             specifies that all electronics
                          EPEAT-registered products.                                       purchases be EPEAT-registered
                                                                                           unless there is no EPEAT
                                                                                           standard for the product. For
                                                                                           non-purchase card purchases,
                                                                                           some guidance is available on
                                                                                           the intranet, but the Agency
                                                                                           has no explicit policy. The
                                                                                           Agency has no method of
                                                                                           enforcing or monitoring
                                                                                           compliance.


                                                                 Inapplicable to NLRB

Executive Order 13211, Actions Concerning Regulations That Significantly          •    Requires agencies to prepare and submit a Statement of Energy
Affect Energy Supply, Distribution, or Use, 2001                                       Effects to OMB for those regulatory actions identified as

                                                                           24
                                                                 Inapplicable to NLRB

                                                                                     significant energy actions (actions likely to have a significant
                                                                                     adverse effect on the supply, distribution, or use of energy).
                                                                                 •   Not applicable because it does not apply to agencies considered
                                                                                     to be independent regulatory agencies, as defined in 44 U.S.C.
                                                                                     3502(5) (which includes the NLRB).

Executive Order 13352, Facilitation of Cooperative Conservation, 2004            •   Ensures that the Departments of the Interior, Agriculture,
                                                                                     Commerce, and Defense and the Environmental Protection
                                                                                     Agency implement laws relating to the environment and natural
                                                                                     resources in a manner that promotes cooperative conservation,
                                                                                     with an emphasis on appropriate inclusion of local participation
                                                                                     in Federal decision making, in accordance with their respective
                                                                                     agency missions, policies, and regulations.
                                                                                 •   Not applicable because the NLRB is not one of the listed
                                                                                     agencies.

Energy Policy Act (EPAct), 106 Stat. 2776, P.L. 102-486 (1992), 42 U.S.C.        •   Requires that:
§13201 et seq., and 119 Stat. 594, P.L. 109-58, 42 U.S.C. 15801 et seq. (2005)       o For Federal fleets of 20 or more vehicles located in a
                                                                                         metropolitan statistical area that are centrally fueled or
                                                                                         capable of being centrally fueled, 75 percent of vehicles
                                                                                         acquired in 1999 and thereafter must be alternative fuel
                                                                                         vehicles;
                                                                                     o only alternative fuel may be used in dual-fueled vehicles
                                                                                         acquired under the above provision except where waived by
                                                                                         DOE;
                                                                                     o not later than Jan. 1, 2010, agencies with federal fleets shall
                                                                                         acquire fuel cell vehicles and hydrogen energy systems to
                                                                                         meet energy conservation requirements.
                                                                                 •   Not applicable because the NLRB does not have 20 or more
                                                                                     vehicles located in a metropolitan statistical area that are
                                                                                     centrally fueled or capable of being centrally fueled, and
                                                                                     agencies are not currently being required to acquire fuel cell
                                                                                     vehicles or hydrogen energy systems.



                                                                           25
                                                           Inapplicable to NLRB

Federal Data Center Consolidation Initiative, 2010                       •   Requires 24 agencies, not including the NLRB, to develop
                                                                             consolidation plans for data centers.

Presidential Memorandum, Implementation of Energy                        •   Requires implementation of energy conservation measures in
Savings Projects and Performance-Based Contracting for Energy Savings,       Federal buildings.
December 2011                                                            •   Not applicable because the Agency leases all space from GSA
                                                                             and has no control over energy conservation in its buildings.

OMB Management Procedures Memo 2013-02, March 14, 2013                   •   Requires CFO Act agencies to submit Revised Real Property
                                                                             Cost Savings and Innovation Plans and annual evaluations of
                                                                             compliance with the “Freeze the Footprint” policy.
                                                                         •   Not applicable because the NLRB is not a CFO Act agency.


Endnotes



        For example, a provision may not be applicable because the cost of utilities is included in the Agency’s leases or
        i

because the NLRB is a small agency. See U.S. Department of Energy, Federal Energy Management Program
(DOE/FEMP), “Guidelines Establishing Criteria for Excluding Buildings from the Energy Performance Requirements of
Section 543 of the National Energy Conservation Policy Act as Amended by the Energy Policy Act of 2005,” (Jan. 27, 2006);
DOE/FEMP, “Reporting Guidance for Federal Agency Annual Report on Energy Management (per 42 U.S.C. 8258),”
(Nov. 2012).

         The U.S. Environmental Protection Agency (EPA) has created a rating system for determining whether a vehicle
        ii

is low GHG-emitting. For model years 2012 and earlier, a passenger car with a rating of 7 or higher qualifies as low GHG-
emitting. For light duty trucks and flexible fuel passenger cars, 6 or higher qualifies (5 or higher for flexible fuel light
duty trucks). EPA, “Guidance for Implementing Section 141 of the Energy Independence and Security Act of 2007,
Federal Vehicle Fleets and Low Greenhouse Gas-Emitting Vehicles” (“EPA Guidance”), EPA-420-B-12-027, June 20, 2012,
pp. 3-5. For model year 2013 and beyond, the EPA changed from a numerical rating system to maximum CO2 emissions
levels. Under the new system, to qualify as low GHG-emitting, passenger cars can emit a maximum of 330g CO2/mile;

                                                                    26
flexible fuel passenger cars can emit 375 g CO2/mile; light duty trucks 415 g CO2/mile; and flexible fuel light duty trucks
460 g CO2/mile. Id. at p. 5. EPA and DOE created websites on which a vehicle’s GHG rating can be located. For all
model years (using the new system of CO2 emissions), users can search www.fueleconomy.gov. For 2012 and earlier
model years only, users can search http://www.epa.gov/greenvehicles to find the numerical rating of particular vehicles.

        While the Agency does not have a policy that vehicles must be low GHG-emitting, it does have a policy
       iii

encouraging Regional Offices to lease alternative fuel or hybrid vehicles. Not all alternative fuel vehicles are low GHG-
emitting (see, for example, the 2012 Chevrolet Impala flexible fuel vehicle. Data available at
http://www.epa.gov/greenvehicles). See EPA Guidance, Appendix B.

       Of the 36 vehicles leased by the Agency, 11 are not low GHG-emitting, and an additional 12 may or may not be—
       iv

depending on the size of the engine (the Agency does not keep this information). For example, the 2009 Pontiac G6 is low
GHG-compliant only if it has a 2.4 liter/4 cylinder engine. Larger engines are not compliant. See Appendix A and
http://www.epa.gov/greenvehicles.
       v  EISA does not define alternative fuel although it does provide that agencies can meet the requirement to reduce
petroleum consumption through, among other things, the use of alternative fuels; use of vehicles with higher fuel
economy, including hybrids, plug-in hybrids, and electric vehicles; and a decrease in fleet size. EISA, 42 USC 6374(e). As
defined in Section 301 of the Energy Policy Act of 1992, alternative fuel “means methanol, denatured ethanol, and other
alcohols; mixtures containing 85 percent or more (or such other percentage, but not less than 70 percent, as determined by
the Secretary, by rule, to provide for requirements relating to cold start, safety, or vehicle functions) by volume of
methanol, denatured ethanol, and other alcohols with gasoline or other fuels; natural gas; liquefied petroleum gas;
hydrogen; coal-derived liquid fuels; fuels (other than alcohol) derived from biological materials; electricity (including
electricity from solar energy); and any other fuel the Secretary determines, by rule, is substantially not petroleum and
would yield substantial energy security benefits and substantial environmental benefits.” 42 U.S.C. §13211. Exec. Order
No. 13514 defines alternative fuel vehicles as those “defined by section 301 of the Energy Policy Act of 1992, as amended
(42 U.S.C. 13211), and otherwise includes electric fueled vehicles, hybrid electric vehicles, plug-in hybrid electric vehicles,
dedicated alternative fuel vehicles, dual fueled alternative fuel vehicles, qualified fuel cell motor vehicles, advanced lean
burn technology motor vehicles, self-propelled vehicles such as bicycles and any other alternative fuel vehicles that are
defined by statute.” Executive Order No. 13514, Federal Leadership in Environmental, Energy, and Economic
Performance (October 5, 2009), pp. 9-10. The 2011 Presidential Memorandum on Federal Fleet Performance refers to

                                                              27
alternative fuel vehicles “such as hybrid or electric, compressed natural gas, or biofuel.” Presidential Memorandum,
Federal Fleet Performance, May 24, 2011. The Department of Energy’s Proposed Rule, Petroleum Reduction
Consumption Requirements for Federal Fleets, defines alternative fuel vehicle as “a dedicated vehicle or a dual-fueled
vehicle, and includes a ‘new qualified fuel cell motor vehicle’ as defined in 26 U.S.C. 30B(b)(3), a ‘new advanced lean burn
technology motor vehicle’ as defined in 26 U.S.C. 30B(c)(3), a ‘new qualified hybrid motor vehicle’ as defined in 26 U.S.C.
30B(d)(3) and any other type of vehicle that the Administrator of the Environmental Protection Agency demonstrates to
the Secretary would achieve a significant reduction in petroleum consumption.” Proposed Rule, Petroleum Reduction
Consumption Requirements for Federal Fleets, 10 CFR Part 438, 77 F.R. 14482-14490 at 14488 (Mar. 12, 2012). For a
definition of alternative fuel, the Proposed Rule (77 F.R. 14488) refers to 10 CFR Part 490.2, which defines alternative fuel
as “methanol, denatured ethanol, and other alcohols; mixtures containing 85 percent or more by volume of methanol,
denatured ethanol, and other alcohols with gasoline or other fuels; natural gas; liquefied petroleum gas; hydrogen; coal-
derived liquid fuels; fuels (other than alcohol) derived from biological materials (including neat biodiesel); three P-series
fuels (specifically known as Pure Regular, Pure Premium and Pure Cold Weather) . . .; and electricity (including electricity
from solar energy).”
      vi In FY 2005, the Agency reported having one vehicle and using 0 gallons of fuel. As a result, DOE/FEMP
calculated the Agency’s fuel use based on its FY 2006 report. In FY 2006, the Agency used 17,192 gallons of petroleum. In
FY 2012, the Agency used 12,812 gallons, a 25 percent reduction.
      vii
            DOE still expects to issue a Final Rule.
      viiiThe minimum baseline would be the greater of (1) the amount of alternative fuel consumed by that Federal fleet
in FY 2005, expressed in gasoline gallon equivalents (gge), as reflected in the FY 2005 FAST data, or (2) the lesser of (a)
five percent of total Federal fleet vehicle fuel (petroleum and alternative fuel) consumption and (b) 500,000 GGEs.
Proposed Rule, Petroleum Reduction Consumption Requirements for Federal Fleets, 10 CFR Part 438, 77 F.R. 14482-14490
at 14486 (Mar. 12, 2012). In FY 2006, the Agency reported using 17,192 gallons of petroleum and 0 gge of alternative fuel.
Applying the baseline formula from the Proposed Rule, the Agency’s minimum baseline of alternative fuel is 860 gge
(17,192 x .05). Under the Proposed Rule, the Agency should use 110 percent of that minimum baseline (or 946 gge of
alternative fuel) by October 1, 2015. Proposed Rule, 77 F.R. 14486.



                                                             28
      ixHowever, the Proposed Rule implements the requirements of EISA, which requires Federal Agencies to reduce
petroleum consumption by 20 percent and increase alternative fuel consumption by 10 percent from the FY 2005 baseline.
      x While the Agency does not acquire large quantities of toxic or hazardous waste, toxic chemicals are part of the
modern office environment and could be monitored by the Agency. Examples of toxic waste in an office environment
include rechargeable batteries, fluorescent light bulbs, flares, some toner cartridges, rubbing alcohol, and expired
influenza vaccine.
      xi  Scope 1 GHG emissions are from sources that are owned or controlled by the Agency, including fleet vehicles.
Scope 2 GHG emissions result from the generation of electricity, heat, or steam purchased by the Agency (includes GHG
emissions generated from the production of electricity purchased by a Federal Agency used to power Federal fleet
vehicles). Scope 3 GHG emissions are from sources not owned or controlled by the Agency but are related to Agency
activities (includes GHG emissions from employee travel and commuting). See Exec. Order No. 13514, p. 10, and Federal
Greenhouse Gas Accounting and Reporting Guidance (June 4, 2012), p. 17.
      xii Under EPA and DOE policy, a low GHG-emitting vehicle may count as an alternative fuel vehicle when
alternative fuel is not available within 5 miles or 15 minutes’ drive of the vehicle’s garage location. See DOE/FEMP,
“Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic Performance, Comprehensive
Federal Fleet Management Handbook,” pp. 34-35, July 2011; and EPA Guidance, p. 13. The 2011 Presidential
Memorandum considers electric hybrids to be alternative fuel vehicles. See note ii above. Federal Agencies remain
subject to requirements to increase alternative fuel consumption even if acquired vehicles are not alternative fuel vehicles.
See EPA Guidance, p. 14.

         An additional 3 gas-powered vehicles would qualify as low GHG-emitting and alternative fuel vehicles (because
      xiii

they are located more than 5 miles from an E85 station) if the engine size is 2.4 liter, 4 cylinder. See Appendix A. The
Agency does not keep records that show engine size.




                                                             29
APPENDIX A: NLRB FLEET INVENTORY BASED ON 2012 FAST INVENTORY REPORT

                                                                                                         Electric    E85
                                                                                                        Charging    within
                 Zip                                           Fuel                       Low GHG       within 5      5      Acquired
     Location   Code    Number           Vehicle Type          Type    GHG Rating        Compliant?      Miles?     Miles?   in 2012?
                                 2012 Ford Focus (no year
AL              35205     1      given; assuming 2012)        E85 FF         7               Yes          Yes        No        Yes
                                                                       7 only if 2.4l,
                                                                          4 cyl. If
CA,                                                                     larger, then     Yes only if
Los Angeles     90017     1      2009 Pontiac G6              E85 FF       lower.        2.4l, 4 cyl.     Yes        No        No
CA,
Los Angeles     90017     1      2009 Chevy Malibu Hybrid     GAS HY         8               Yes          Yes        No        No
                                                                       7 only if 2.4l,
                                                                          4 cyl. If
CA,                                                                     larger, then     Yes only if
San Francisco   94103     2      2010 Dodge Avenger           GAS          lower.        2.4l, 4 cyl.     Yes        No        No
                                                                       7 only if 2.4l,
                                                                          4 cyl. If
                                                                        larger, then     Yes only if
CA, Oakland     94612     1      2009 Pontiac G6              E85 FF       lower.        2.4l, 4 cyl.     Yes        Yes       No
                                                                       7 only if 2.4l,
                                                                          4 cyl. If
                                                                        larger, then     Yes only if
CA, Oakland     94612     2      2010 Dodge Avenger           GAS          lower.        2.4l, 4 cyl.     Yes        Yes       No
CT              06103     1      2011 Dodge Avenger           GAS            5               No           Yes        No        No
FL, Miami       33130     1      2009 Chevy Malibu Hybrid     GAS HY         8               Yes          Yes        Yes       No
IL, Chicago     60606     1      2011 Chevy Malibu            E85 FF         6               No           Yes        Yes       No
                                 Ford Focus (no year given;
IL, Peoria      61602     1      assuming 2012)               E85 FF         7               Yes           No        Yes       Yes
IN              46204     1      2010 Chevy Malibu            E85 FF         6               No           Yes        Yes       No
KS              66212     1      2012 Chevy Impala            E85 FF         5               No           Yes        No        Yes
LA              70130     3      2012 Hyundai Elantra         GAS            7               Yes          Yes        No        Yes
                                 2012 Ford Focus (no year
MA              02222     3      given; assuming 2012)        E85 FF         7               Yes          Yes        Yes       Yes
                                                                                                            Electric    E85
                                                                                                           Charging    within
                  Zip                                           Fuel                         Low GHG       within 5      5      Acquired
    Location     Code    Number           Vehicle Type          Type     GHG Rating         Compliant?      Miles?     Miles?   in 2012?
                                                                        7 if 2.4l, 4 cyl.
                                                                        If larger, then     Yes only if
MD               21202     2      2009   Pontiac G6            E85 FF        lower.         2.4l, 4 cyl.     Yes        No        No
MD               21202     1      2012   Ford Fusion Hy        GAS HY           9               Yes          Yes        Yes       No
MI, Detroit      48226     1      2008   Jeep Cherokee         E85 FF           3               No           Yes        No        No
MI, Detroit      48226     1      2011   Che Malibu            E85 FF           6               No           Yes        No        No
MI,
Grand Rapids     49503     1      2010 Jeep Liberty            GAS           3 or 4             No           Yes        Yes       No
MN               55401     1      2011 Chevy Malibu            E85 FF           6               No           Yes        Yes       No
                                                                        7 if 2.4l, 4 cyl.
                                                                        If larger, then     Yes only if
                 27106     1      2009   Pontiac G6            GAS              6           2.4l, 4 cyl.     Yes        No        No
NJ               07102     1      2011   Ford Fusion Hy        GAS HY           9               Yes          Yes        Yes       No
NY, Albany       12207     1      2010   Chevy Malibu          E85 FF           6               No           Yes        Yes       No
NY, Buffalo      14202     1      2012   Ford Focus            GAS              7               Yes          Yes        No        No
                                                                        7 if 2.4l, 4 cyl.
                                                                        If larger, then     Yes only if
OH               45202     1      2009 Pontiac G6              GAS              6           2.4l, 4 cyl.     No         Yes       No
PA, Pittsburgh   15222     1      2006 Chevy Trailblazer       GAS           3 or 4             No           Yes        No        No
                                                                        7 if 2.4l, 4 cyl.
PA,                                                                     If larger, then     Yes only if
Philadelphia     19106     2      2009 Pontiac G6              GAS              6           2.4l, 4 cyl.     Yes        Yes       No
WA               98174     1      2011 Dodge Avenger           GAS              5               No           Yes        No        No
WA               98174     1      2012 Ford Focus              GAS              7               Yes          Yes        No        Yes

Notes:

•   Eleven vehicles (highlighted rows) do not meet the requirement to be low greenhouse gas (GHG)-emitting.
    The status of 12 vehicles could not be determined because the Agency does not have data on engine size.

•   Three vehicles are larger than midsized: Pittsburgh's Trailblazer, Detroit's Jeep, and Grand Rapids' Jeep.



                                                           2
•   For Model Year 2012 and earlier, a passenger car with a rating of 7 or higher qualifies as low GHG. For
    light duty trucks and FFV passenger cars, 6 or higher qualifies (5 or higher for FFV light duty trucks).
    U.S. Environmental Protection Agency, “Guidance for Implementing Section 141 of the Energy
    Independence and Security Act of 2007, Federal Vehicle Fleets and Low Greenhouse Gas-Emitting
    Vehicles,” EPA-420-B-12-027, June 20, 2012, p. 8 ("EPA Guidance").

•   For Model Year 2013 and beyond, passenger cars can emit a max of 330g CO2/mile; FFV passenger cars
    375 g; light duty trucks 415 g; FFV light duty trucks 460 g. EPA Guidance, p. 9.

•   Except for cars garaged in California, ratings are based on federal standards (California laws are stricter,
    and some cars may meet GHG requirements if leased in CA but not in other states). For example, the
    2010 Malibu flex fuel car has a GHG rating of 7 in California and 6 in other states.

•   Proximity of E85 and electric charging stations was determined using the zip code of the Regional Office
    and searching for E85 stations at www.afdc.energy.gov.




                                                         3
Appendix B: FY 2012 Vehicle Acquisitions

                                                                           E85
              Zip      Fuel                                  Low GHG-    within 5
 Location    Code      Type    Number          Type          Emitting?    Miles?
AL           35203    E85 FF     1       Ford Focus             Yes         No
IL, Peoria   61602    E85 FF     1       Ford Focus             Yes        Yes
KS           66212    E85 FF     1       Chevy Impala           No          No
LA           70130    GAS        3       Hyundai Elantra        Yes         No
MA           02222    E85 FF     3       Ford Focus             Yes        Yes
WA           98104    GAS        1       Ford Focus             Yes         No

NOTES:

The Birmingham, AL Resident Office no longer leases a vehicle.

One car (highlighted row) is not low GHG-emitting and therefore not compliant with EISA.
                                                                 Table 2: Corrective Actions

          Acquisitions               Facilities and           Fleet Vehicles                        OCIO                    Sustainability            Telework
                                        Property
1.   Establish affirmative           1. Ensure that    1.   Establish policies and        1.   Establish policy to     1.    Ensure that the     1.   Consult with
     purchasing program                 each field          procedures, including              enable energy                 climate change           OPM to
2.   Ensure agency has enforceable      office has a        adequate recordkeeping,            savings features              adaptation plan          develop
     policies for purchasing:           recycling           to ensure that:                    (such as standby              is appropriately         policies
      a. Energy Star, FEMP,             program              a. Leased vehicles are            mode) on all                  submitted.          2.   Designate
         EPEAT, and EPA-                and policies            low greenhouse gas             electronics             2.    Implement EMS            senior official
         designated products            to reduce               emitting, and use         2.   Establish electronics         or compliance            as Telework
      b. Products using 1 watt of       toxic waste             alternative fuel or are        stewardship                   management               Managing
         standby power or less       2. Establish               hybrids, including             policies, such as             plan                     Officer.
      c. Uncoated, recycled paper       (and                    plug-in hybrids,               policies to extend      3.    Prepare             3.   Establish
         (30 percent post-consumer      publicize)              where applicable               the useful life of            environmental            telework
         fiber)                         policy that          b. Alternative fuel               electronics                   assessments or           participation
      d. Environmentally                all used                vehicles use                                                 impact                   goal
         preferable, energy- and        toner                   alternative fuel                                             statements where
         water-efficient, and           cartridges           c. Vehicles are midsized                                        applicable and
         biobased products              should be               or smaller                                                   establish
3.   Monitor purchases to ensure        returned for   2.   Post on www.nlrb.gov                                             implementing
     requirements are met               recycling           any vehicle that is larger                                       procedures for
4.   Ensure that all electronics                            than midsized or does                                            NEPA
     purchases meet green                                   not run on alternative                                     4.    Establish
     purchasing requirements,                               fuel                                                             programs for
     including that 95 percent of                      3.   Monitor usage of                                                 training,
     electronics be EPEAT-                                  petroleum and                                                    compliance
     registered products                                    alternative fuel to ensure                                       review and audit,
5.   Ensure that 95 percent of new                          that targets are met                                             and awards.
     contract actions for products                     4.   Maintain functional
     and services meet green                                needs exemptions where
     purchasing requirements                                applicable
6.   Include green purchasing                          5.   Complete Vehicle
     requirements in contracts                              Allocation Methodology
                                                            and related requirements
